No. 20-1214
IN THE

Supreme Court of the United States
____________________
FRED J. EYCHANER,
Petitioner,
v.
CITY OF CHICAGO,
Respondent.
____________________
On Petition for a Writ of Certiorari
to the Appellate Court of Illinois
____________________

BRIEF OF LAW PROFESSORS AS AMICI
CURIAE IN SUPPORT OF PETITIONER
____________________
Meaghan VerGow
Counsel of Record
Jeremy Girton
O’MELVENY & MYERS LLP
1625 Eye Street, N.W.
Washington, D.C. 20006
(202) 383-5300
mvergow@omm.com

i
QUESTIONS PRESENTED
1. Is the possibility of future blight a permissible
basis for a government to take property in an
unblighted area and give it to a private party for
private use?
2. Should the Court reconsider its decision in Kelo
v. City of New London, 545 U.S. 469 (2005)?

i
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...................................... i
INTEREST OF THE AMICI CURIAE ..................... 1
INTRODUCTION ..................................................... 1
SUMMARY OF THE ARGUMENT .......................... 4
ARGUMENT ............................................................. 5
I. Blight Designations Are Frequently
Used to Justify Taking Property Owned
by People of Color and the Economically
Disadvantaged. ............................................... 5
A. Since the 1950s, the Concept of
“Blight” Has Steadily Expanded. ............. 5
B. Blight Designations Have
Historically Been Used to Target the
Underprivileged. ....................................... 9
II. Private Redevelopment of
Neighborhoods “At Risk of Future
Blight” Is Not a Public Use. ......................... 15
CONCLUSION ........................................................ 21

ii
TABLE OF AUTHORITIES
Page(s)
Cases
Berman v. Parker,
348 U.S. 26 (1954) ................................................16
Kelo v. City of New London,
545 U.S. 469 (2005) ...................................... passim
Norwood v. Horney,
853 N.E.2d 1115 (Ohio 2006) ........................17, 18
Poletown Neighborhood Council v. City
of Detroit,
304 N.W.2d 455 (Mich. 1981) ..............................12
Statutes
65 Ill. Comp. Stat. 5/11-74.4-3(b)..........................7, 20
Other Authorities
Adam Cohen & Elizabeth Taylor,
American Pharaoh: Mayor Richard
J. Daley—His Battle for Chicago and
the Nation (2000) ................................. 5, 10, 11, 12
David Firestone, Black Families Resist
Mississippi Land Push, N.Y. Times
(Sept. 10, 2001) ....................................................13
Mindy Thompson Fullilove, Eminent
Domain & African Americans, What
is the Price of the Commons,
Perspectives on Eminent Domain
Abuse (2015)............................................... 9, 12, 14

iii
TABLE OF AUTHORITIES
(continued)
Page(s)
Martin E. Gold & Lynne B. Sagalyn,
The Use and Abuse of Blight in
Eminent Domain, 38 Fordham Urb.
L.J. 1119 (2011) .............................................5, 6, 7
Colin Gordon, Blighting the Way: Urban
Renewal, Economic Development,
and the Elusive Definition of Blight,
31 Fordham Urb. L.J. 305 (2004) ..................6, 8, 9
Patricia Hureston Lee, Shattering
‘Blight’ and the Hidden Narratives
that Condemn, 42 Seton Hall Leg. J.
29 (2017) ................................................. 7, 8, 12, 14
Laura Mansnerus, Public Use, Private
Use, and Judicial Review in
Eminent Domain, 58 N.Y.U. L. Rev.
409 (1983) .......................................................14, 16
Barack Obama, The Audacity of Hope
(2006) ....................................................................15
Wendell E. Pritchett, The “Public
Menace” of Blight: Urban Renewal
and the Private Uses of Eminent
Domain, 21 Yale L. & Pol’y Rev. 1
(2003) ......................................................................9

iv
TABLE OF AUTHORITIES
(continued)
Page(s)
Natalia C. Reyna-Pimiento,
Condemnation Blight as a Per Se
Taking: Clarifying the Limits of the
Government’s Power of Eminent
Domain Under Florida Law, 47
Stetson L. Rev. 487 (2018) .....................................8
Charles Toutant, Alleging Race-Based
Condemnation, N.J. L.J. (Aug. 2,
2004) .....................................................................12
Derek Werner, The Public Use Clause,
Common Sense and Takings, 10
B.U. Pub. Int. L.J. 335 (2001) .............................12

INTEREST OF THE AMICI CURIAE1
Amici are law professors who study the
intersection of eminent domain law with race, class,
and wealth. Through their work, amici have seen
how the takings power, particularly the use of blight
or risk-of-future-blight designations, has been used
by states to transfer property in poor neighborhoods
and communities of color to private enterprises in the
spirit of economic progress. Amici have an interest in
ensuring that the law of eminent domain provides
sufficient safeguards to ensure that takings are truly
for a public use. Institutional affiliations are included
for informational purposes only, the views
represented herein represent amici’s personal views.
Professor Patricia H. Lee is a Clinical Professor of
Law at Loyola University Chicago, the Executive
Director of the Business Law Center, and the CoDirector of the Business Law Clinic.
Professor Lynnise E. Pantin is a Clinical Professor
of Law at Columbia Law School and the founding
Director of the Entrepreneurship and Community
Development Clinic.
INTRODUCTION
This is one of the most important eminent domain
cases to come before this Court since Kelo v. City of
New London, 545 U.S. 469 (2005). In the Kelo
No counsel for a party authored this brief in whole or part, and
no counsel or party made a monetary contribution to fund the
preparation or submission of this brief. No one other than the
amici curiae and their counsel made any monetary contribution
to its preparation and submissions. The parties were given
timely notice and consented to this filing.

1

2
decision, the Court endorsed an expansive view of the
“public use” requirement of the takings clause,
whereby governmental transfers of property for the
purpose of private economic development can be a
valid public use in situations where the taking is nonpretextual and part of a comprehensive development
plan. Although the public backlash against that
decision resulted in some states enacting restrictions
on their own takings authority, these initiatives have
not curbed the problem of eminent domain abuse.
Most states still broadly authorize transfers of
property to private parties where the property in
question is deemed “blighted,” or, as is the case here,
“may become a blighted area,” based on vague
multifactor tests that are easily manipulated and
poorly designed to address the historical concept of
“blight.” In the instant case, the City of Chicago has
attempted to use its takings authority to condemn
property that is indisputably not blighted and
transfer it to a nearby private business, on the theory
that the property might become blighted in the future.
This Court has never endorsed a theory of takings
that sanctions this type of direct transfer from one
party to another. In Kelo, the Court recognized the
risk that states may try to use their power of eminent
domain to transfer property to a private entity, solely
because the new owner “will put the property to a
more productive use and thus pay more taxes,” and it
declined to endorse the constitutionality of such a
scheme. 545 U.S. at 487. This case squarely presents
that scenario.
Using its vague and arbitrary
statutory power to designate property as at risk of
becoming blighted, Chicago has condemned

3
petitioner’s property, despite no evidence that the
property poses (or posed) a risk to health or safety (the
historical justification for blight designations), and
despite the development of the surrounding
neighborhood into a vibrant, valuable community.
Across the country, similar designations have
been used to condemn entire neighborhoods in the
name of economic progress, but they frequently fail to
produce the promised economic returns. Historically,
blight-related takings disproportionately targeted
communities of color as part of a nationwide effort
toward “urban renewal,” a pattern that continues to
this day. Marginalized communities bear the brunt
of the eminent domain burden because they lack the
political power and the economic resources to resist
such takings and protect their property rights. It
should come as no surprise that poorer communities
are also more likely to satisfy the vague criteria that
states and localities have identified as indicating the
risk of future blight: older housing structures, greater
tax delinquency, diverse property ownership, lack of
urban planning, and lower property values, among
others. Statutes like the one used here by Chicago are
tailor-made to justify property transfers from the poor
and politically powerless to the wealthy and
politically well-connected.
The Court should grant review in this case to
curtail this pattern of eminent domain abuse. It
should hold that using easily manipulable risk-offuture-blight designations to transfer property to
private parties is not a “public use” authorized by the
takings clause. If necessary, it should revisit the
decision in Kelo to confirm that the type of taking

4
Chicago is attempting here does not satisfy the public
use requirement of the takings clause.
SUMMARY OF THE ARGUMENT
The Court should take up this case to clarify that
taking property for private development to prevent
future blight is not a valid public use. In the latter
half of the twentieth century, the definition of “blight”
has evolved to become both broader and vaguer,
giving municipalities unchecked authority to classify
property as worthy of condemnation. Several states
have now gone even further and expanded their
understanding of blight to include property that is not
blighted but merely “at risk” of becoming so, an even
more malleable standard. Because eradication of
blight has long been understood to be a public use in
itself, declaring property blighted or at risk of blight
has become an easy way to condemn property and
transfer it to private developers, even in the absence
of any other public benefit. These tools have been
disproportionately used against poor neighborhoods,
communities of color, immigrants, and the elderly,
groups which have fewer resources and less political
power to resist takings. This Court’s intervention is
necessary to prevent further eminent domain abuse.

5
ARGUMENT
I. Blight Designations Are Frequently Used to
Justify Taking Property Owned by People of
Color and the Economically Disadvantaged.
A. Since the 1950s, the Concept of “Blight”
Has Steadily Expanded.
From its origins, the concept of blight has been
convoluted and controversial. Beginning in the 1920s
and 1930s, states and the federal government
initiated projects to purportedly clear “slums” and
build public housing. Martin E. Gold & Lynne B.
Sagalyn, The Use and Abuse of Blight in Eminent
Domain, 38 Fordham Urb. L.J. 1119, 1121 (2011).
Around the time of World War II, states began
authorizing private redevelopment projects to rebuild
urban areas. Id. Toward that end, the Housing Act
of 1949 “allocated millions of federal dollars to
localities to buy and reclaim slum properties,” and is
frequently credited as starting the national “urban
renewal” movement. Adam Cohen & Elizabeth
Taylor, American Pharaoh: Mayor Richard J. Daley—
His Battle for Chicago and the Nation 175 (2000). The
concept of blight is a botanical term that was
repurposed by redevelopment advocates to describe
an area as an economic or social concern to
municipalities.
Blight was originally understood to describe poor
housing conditions that posed an actual threat to
health and safety, otherwise called a “slum.” The
conditions included evident structural defects, health
hazards, and insufficient access to air, light, and
utilities. However, the concept has always been

6
nebulous. “The facilitating feature of ‘blight’ was that
it was hard to know precisely what it was and
therefore hard to define, yet this very vagueness
would make it easy to find.” Gold & Sagalyn, supra,
at 1122.
Since the 1950s, states have gradually expanded
their utilization of “blight” to encompass a number of
vague factors indicating blighted (or potentially
blighted) conditions. These include high vacancy
rates, perceived urban planning or zoning defects,
and inadequate tax generation. In addition, states
began using factors not traditionally associated with
presently blighted conditions, such as declining
property values, on the theory that these factors
showed the potential for future blight.
These
additional characteristics allowed municipalities to
sweep a much greater range of property into the orbit
of blight-based takings statutes. Many of these
criteria
described
communities
that
were
experiencing economic distress but did not present
actual health or safety concerns. Declining property
values or zoning issues could exist in a wide range of
communities. Little empirical evidence supported the
view that these conditions telegraphed the future
presence of health or safety concerns. Rather than
actually define blight in a concrete way, most states
opted instead to adopt “a descriptive catalogue of
blighted conditions—often pasted verbatim from
Progressive-era health or safety statutes.” Colin
Gordon, Blighting the Way: Urban Renewal,
Economic Development, and the Elusive Definition of
Blight, 31 Fordham Urb. L.J. 305, 312 (2004).

7
Illinois’s statute follows the national pattern. The
statute allows the designation of a “conservation
area” that “is not yet a blighted area” but “may
become a blighted area” based on the presence of at
least three of thirteen blighting factors. These factors
include such ambiguous and manipulable criteria as
“incompatible land-use relationships,” structures “illsuited for the original use,” lack of community
planning, and areas that are not increasing in value
sufficiently quickly to keep pace with the rest of the
municipality. See 65 Ill. Comp. Stat. 5/11-74.4-3(b).
Illinois’s statute is typical of many jurisdictions, most
of which include factors beyond the presence of
structural defects or health hazards to include
obsolescent planning, taxation issues, and title
problems. See Gold & Sagalyn, supra, at 1125.
These types of multifactor tests are easy to
manipulate, particularly in the majority of states that
rely on non-quantitative criteria or allow blight
designations based on the presence of a small number
of factors. It does not require much imagination to
see how an underprivileged community could be
characterized as meeting several of these blighting
factors, even if the community is thriving. The
“amorphous definition of blight,” contributes “to the
condemnation of properties in the most vulnerable
communities.” Patricia Hureston Lee, Shattering
‘Blight’ and the Hidden Narratives that Condemn, 42
Seton Hall Leg. J. 29, 31 (2017).
Eliminating blight (and the risk of it) has long
been understood to be a valid public use for takings
purposes, regardless of what the property is later
used for. Thus, states and municipalities have used

8
their expanded blight designation powers to condemn
property and transfer it for private development,
regardless of whether that development has any
public benefits or alleviates the factors that made the
area “at risk of blight” in the first place. More
devastating is the fact that even where a project could
be understood to have public benefits, those benefits
typically do not flow to the property owners who were
displaced from their communities during the eminent
domain process. Lee, supra, at 38.
Moreover, the principles driving blight takings are
often self-fulfilling. A governmental determination—
or threat of it—that an area is blighted or will be
condemned can itself cause physical or economic
deterioration of property that is akin to blight. See
Natalia C. Reyna-Pimiento, Condemnation Blight as
a Per Se Taking: Clarifying the Limits of the
Government’s Power of Eminent Domain Under
Florida Law, 47 Stetson L. Rev. 487, 490-92 (2018).
Thus, the very act of designating a property as at risk
of becoming blighted can cause property values to
decrease and vacancies to rise—typical conditions
used to justify condemnation. Even where no formal
designation has been made, the ever-present threat of
condemnation disincentivizes poorer residents to
invest in their communities, which in turn can cause
the economic and social distress that is likely to
trigger a blight designation.
Over time, “blight” “lost any substantive meaning
as either a description of urban conditions or a target
for public policy.” Gordon, supra, at 307. It became
“a legal pretext for various forms of commercial tax
abatement that, in most settings, divert money from

9
schools and county-funded social services … to
subsidize the building of suburban shopping malls.”
Id. Blight statutes—especially those that authorize
takings based on a risk of future blight, like the
Illinois statute at play here—give states and localities
unfettered latitude to designate virtually any
property or neighborhood as in need of intervention in
the form of new ownership. They invite arbitrary
enforcement, and arbitrary enforcement means that
certain communities are more likely to be targets of
eminent domain than others.
B. Blight Designations Have Historically
Been Used to Target the Underprivileged.
Blight designations have been disproportionately
used to condemn property in poor neighborhoods and
in communities of color. “Throughout the 1950s and
into the 1960s, American cities undertook massive
redevelopment projects that cleared large areas,”
particularly Black neighborhoods surrounding their
central business districts. Wendell E. Pritchett, The
“Public Menace” of Blight: Urban Renewal and the
Private Uses of Eminent Domain, 21 Yale L. & Pol’y
Rev. 1, 47 (2003). The use of blight takings to raze
predominantly Black neighborhoods was so pervasive
that the word “blight” itself became “infused with
racial and ethnic prejudice.” Id. at 6. “In cities across
the country, urban renewal came to be known as
‘Negro removal.’” Id. at 47. The end result was the
displacement of more than one million people, twothirds of them Black, as their property was
condemned and turned over to private parties for
development.
Id.; Mindy Thompson Fullilove,
Eminent Domain & African Americans, What is the

10
Price of the Commons, Perspectives on Eminent
Domain Abuse 3 (2015).
Chicago in particular has a history of using
eminent domain proceedings to target poorer, Black
communities in the name of urban renewal. Illinois’s
Redevelopment and Relocation Act of 1947, which
gave cities like Chicago the power to condemn slum
land using eminent domain and transfer it to private
developers, was enacted in part to develop land on
Chicago’s South Side around the Illinois Institute of
Technology—to avoid having it be transformed into
racially integrated public housing. See Cohen &
Taylor, supra, at 175. Instead, the area was razed to
build Lake Meadows apartments, which substantially
increased the white population of the area and
replaced a largely poor population with one that was
predominately middle class. Id. at 176. Nearby, the
area around the former Michael Reese Hospital and
Medical Center was developed into the Prairie Shores
housing complex, which deliberately gave priority
housing to hospital staff, rather than nearby
residents, to obtain 80 percent white occupancy. Id.
at 177. Following these projects, the Chicago Central
Area Committee began targeting “blighted” areas in
downtown for redevelopment, “making it wealthier
and whiter in the process.” Id. at 176-77; see also id.
at 216-19 (discussing how Chicago’s 1958 urban
development plan “must be seen now as an important
step in a long-evolving process of making Chicago
America’s most racially segregated large city”).
In February 1958, the University of Chicago
proposed the Final Plan, an urban renewal project
that was designed to reverse the rapidly growing

11
racial diversity of the surrounding Hyde Park
neighborhood. See Cohen & Taylor, supra, at 206-12.
Ostensibly to remove “blight,” the plan called for
demolishing 20 percent of the neighborhood’s
buildings and replacing them with open space or new,
higher-income housing. With $30 million in federal
and local funds, the project razed thousands of
residences and largely achieved its goal of forcing
poorer, Black residents out of the neighborhood.
During the 1960s, average income in the
neighborhood increased by 70 percent, while the
Black population fell by 40 percent. Id. at 212.
Meanwhile, the university successfully blocked most
attempts to build racially diverse affordable housing,
and constructed barrier-type buildings to separate
nearby Black neighborhoods from the university’s
campus. Id.
From the 1950s to the 1970s, Chicago continued a
pattern of establishing new redevelopment plans that
used eminent domain to demolish poor neighborhoods
and openly prevent racial integration. The ClarkLaSalle Redevelopment Project spent $10 million of
largely federal money to bulldoze blocks of Chicago’s
Near North Side to create “buffers” for existing white
neighborhoods. Id. at 529-30. The city’s 1967
redevelopment plan called for 1,850 acres of “slum”
clearance and other measures to “reduce future losses
of white families” from the city. Id. at 430-31. The
Chicago 21 redevelopment plan, released in 1973,
similarly proposed bulldozing Black and Latino
neighborhoods south of the Loop in an attempt to
draw wealthier white residents back to the downtown
area. Id. at 528-31. The result is now the Dearborn

12
Park area, which was designed with no north-south
through streets to prevent poorer, Black residents
from driving north toward downtown. Id.
Chicago was certainly not alone its efforts to use
blight designations in this way. Similar projects
during the 1960s and 1970s in Pittsburgh, Detroit,
Boston, Atlanta, and other American cities targeted
neighborhoods
for
demolition
that
were
disproportionately made up of the poor, the elderly,
immigrants, or people of color. See, e.g., Poletown
Neighborhood Council v. City of Detroit, 304 N.W.2d
455, 470 (Mich. 1981) (discussing the displacement of
an entire neighborhood composed of “generally
elderly, mostly retired and largely Polish-American
residents” for the purpose of building a GM plant).
The Federal Housing Act funded 2,532 projects in 992
cities to clear “blighted” neighborhoods between 1949
and 1973. Fullilove, supra, at 2. African-Americans
were five times more likely to be displaced during
these projects than they should have been given their
population numbers. Id. Nationwide, between 1949
and 1963, “sixty-three percent of all the families
displaced by urban renewal were non-white.” Derek
Werner, The Public Use Clause, Common Sense and
Takings, 10 B.U. Pub. Int. L.J. 335, 350 (2001).
These practices continue to the present, albeit
with less explicitly racist overtones. Even today,
blight designations are commonly used to take
property in communities of color, particularly in the
industrial Midwest and Northeast. See Lee, supra, at
36-37 (surveying news coverage of blight takings in
2017); see also Charles Toutant, Alleging Race-Based
Condemnation,
N.J.
L.J.
(Aug.
2,
2004),

13
https://www.law.com/njlawjournal/almID/900005412
467/alleging-racebased-condemnation/
(discussing
lawsuit by New Jersey property owners alleging
redevelopment plans disproportionately affect “lowincome,
minority
neighborhoods
with
high
concentrations of African-Americans and Hispanics”);
David Firestone, Black Families Resist Mississippi
Land Push, N.Y. Times (Sept. 10, 2001),
https://www.nytimes.com/2001/09/10/us/blackfamilies-resist-mississippi-land-push.html
(discussing taking of property owned for 60 years by
Black families in Canton, Mississippi, to make way
for a parking lot for a Nissan factory provided with
more than $295 million in state tax incentives).
There are several intersecting factors that cause
communities of color and the underprivileged to bear
the greater burden of blight takings, even setting
aside the backdrop of overt racial prejudice that
motivated many takings during the middle of the
twentieth century. First, marginalized communities
lack the political power to prevent their communities
from becoming targets for takings in the first place.
See Kelo, 545 U.S. at 521-22 (Thomas, J., dissenting)
(noting that the communities targeted by
redevelopment-oriented takings are “the least
politically powerful”). Second, poorer communities
are prime targets for takings because property values
are generally lower, and such communities are less
likely to put their property toward its most efficient
economic use, reducing the amount of “just
compensation” necessary to effect the taking
compared to the property’s future value. See id. at
521 (“[E]xtending the concept of public purpose to

14
encompass any economically beneficial goal
guarantees
that
these
losses
will
fall
disproportionately on poor communities.”). Finally,
underprivileged communities have fewer resources to
resist efforts to purchase their property or litigate
eminent domain proceedings. See Laura Mansnerus,
Public Use, Private Use, and Judicial Review in
Eminent Domain, 58 N.Y.U. L. Rev. 409, 435-38
(1983) (discussing the difficulty of opposing
condemnation proceedings).
These intersecting
factors make these communities easy political and
economic targets.
Recent
scholarship
has
highlighted
the
compounding negative effects of blight takings on
vulnerable communities, which are not fully
addressed by existing just compensation schemes.
See Kelo, 545 U.S. at 521 (Thomas, J., dissenting)
(“[N]o compensation is possible for the subjective
value of these lands to the individuals displaced and
the indignity inflicted by uprooting them from their
homes.”).
Beyond the market value of their
properties, razing an entire community disrupts
social networks, destroys small businesses, and
wastes cultural capital. See Lee, supra, at 40; see also
Fullilove, supra, at 5. And frequently, prior residents
are unable to afford to live in the “revitalized”
community. Where one of the locality’s stated goals
is to improve the tax base, it is axiomatic that lowerincome housing will be replaced with businesses and
higher-income housing beyond the reach of former
residents. Rather than improve the living conditions
of the local residents, the primary result of blightbased takings, particularly in Chicago, has been to

15
displace Black and poor residents from their homes to
protect largely white, wealthier neighborhoods.
II. Private Redevelopment of Neighborhoods
“At Risk of Future Blight” Is Not a Public
Use.
Although Justices of this Court have disagreed
about the meaning of the “public use” requirement,
not one has ever endorsed the view that it permits the
condemnation of property that is indisputably neither
“blighted” nor a “slum,” solely for the purpose of
transferring it to another private owner. Since this
Court’s decision in Kelo, many states enacted
restrictions limiting their ability to take property for
private economic development. However, states have
continued to retain their expansive and amorphous
tests for blight takings, leaving a loophole that is easy
to exploit. Courts have historically given states
virtually unfettered discretion to determine what
constitutes “blight,” and have generally sanctioned
the condemnation of property deemed blighted or at
risk of blight regardless of the ultimate intended use
for the property, on the theory that any productive use
will benefit the public. This has allowed states to
condemn large swaths of non-distressed property and
turn it over to private economic development, as this
case illustrates. The Court should intervene to
prevent this ongoing abuse of the eminent domain
power.
“Our Constitution places the ownership of private
property at the very heart of our system of liberty.”
Barack Obama, The Audacity of Hope 149 (2006). The
Fifth Amendment enshrines that principle by
prohibiting the deprivation of property without due

16
process and “allowing the government to take
property not for ‘public necessity,’ but instead for
‘public use.’” Kelo, 545 U.S. at 505 (Thomas, J.,
dissenting). At a minimum, the public use clause has
been universally understood by this Court to prohibit
“a one-to-one transfer of property, executed outside
the confines of an integrated development plan.” Id.
at 487 (majority opinion).
That understanding has become distressingly
relaxed when it comes to blight-related takings. In
Berman v. Parker, the Court addressed the concept of
blight takings in the context of an integrated
redevelopment plan for an area of Washington, D.C.
The Court concluded that because much of the area
was “slums,” a taking was authorized that not only
would clear out the slums, but also prevent their
return by redeveloping the area “as a whole.” 348
U.S. 26, 34 (1954). Over time, the necessity for an
integrated development plan to justify blight takings
that encompassed non-blighted areas diminished.
“[W]ith few exceptions the courts agreed that,
whatever the proposed use of the property in
question, elimination of slums was in and of itself a
valid public purpose.” Mansnerus, supra, at 415.
Two critical features that defined the taking in
Berman—(1) actual conditions posing a threat to
health and safety and (2) an integrated development
plan that required taking surrounding area to
prevent the recurrence of those conditions—are not
present in the instant case. No one contends that the
property at issue (or the surrounding property)
presents any health or safety concerns, and thus the
taking cannot be justified as necessary to prevent

17
health or safety concerns from resurfacing. The only
justification offered in this case is that the property in
question is part of a “conservation area” that has been
identified as at risk of future blight based on the
presence of a small number of blight factors.
The public use justifications for the taking in
Berman cannot support the type of taking the Illinois
courts endorsed here. The historical understanding
of “blight” sanctioned the removal of “slums” because
such housing conditions present an affirmative harm
that is damaging to public health and welfare. Such
action would be independently justified by the state’s
exercise of its police power to abate public nuisances.
See Kelo, 545 U.S. at 510-11, 519-20 (Thomas, J.,
dissenting).
And because the removal of an
affirmative harm serves the public interest,
transferring the property to virtually any private
party that will put it to productive use results in a net
public benefit. But that logic evaporates when the
property is indisputably not blighted and not
sufficiently proximate to blighted property to require
a taking. In that event, transferring the property to
another private owner simply increases the property’s
value and provides increased tax revenue to the
locality.
Some state courts have drawn a line at takings
based on the mere potential that the property could
become blighted in the future. The most notable
example is the Ohio Supreme Court’s decision in
Norwood v. Horney, 853 N.E.2d 1115 (Ohio 2006).
The case involved property that the locality had found
was not blighted, but merely “deteriorating.” See id.
at 1143-44. Much like the Illinois statute at issue

18
here, this finding was based on the presence of a
number of vague factors that the Ohio Supreme Court
acknowledged “could apply to many neighborhoods,”
including: “incompatible land uses, nonconforming
uses, lack of adequate parking facilities, faulty street
arrangement, obsolete platting, and diversity of
ownership.” Id. at 1144. The Ohio Supreme Court
rejected this multi-factor definition of a deteriorating
area as a “standardless standard” that “invite[s] ad
hoc and selective enforcement.” Id. at 1145. It also
noted that a taking based on this definition is
inherently speculative, because it is based on a
finding not that an area is deteriorated or necessarily
will deteriorate, but is merely “in danger” of
deteriorating. Id. The Ohio Supreme Court refused
to permit a taking on this shaky foundation. Instead,
it held that to justify a blight-based taking, there
must be a finding that the property, “because of its
existing state of disrepair or dangerousness, poses a
threat to the public’s health, safety, or general
welfare.” Id.
This Court should grant certiorari in this case and
adopt a standard similar to Norwood. A taking of
property based solely on the speculative conclusion
that the property may become blighted in the future
is not a permissible use of the eminent domain power.
As this case illustrates, speculation often turns out to
be wrong; the property that Chicago seeks to condemn
here has surged in value since it was first designated
a conservation area. Instead, at a minimum, a blightbased taking should require a finding that the
property presents an affirmative, present harm to the
community because it is dangerous or unsafe. Using

19
eminent domain on such properties to eliminate the
affirmative harm aligns with states’ longstanding
police power to abate nuisances. It also better
protects property rights and the expectations of
property owners, who can take steps to avoid
condemnation by removing the offending conditions.
Right now, the conscientious owner of a wellmaintained property is powerless to forfend a
determination that the property may be condemned
because it is at risk of becoming blighted.
Unless the Court intervenes, no property will be
safe from speculative takings justified by nothing but
the debatable conclusion that the property could
become blighted in the future. This case illustrates
the problem. Eychaner’s property is not blighted, and
the City’s prediction that it was at risk of blight has
obviously borne out to be false. The property has
enormous potential value, and transferring it to a
nearby private business solely for use by that
business does not serve any public purpose. Indeed,
the transfer could even reduce the value of the
property if it is not put to its highest-performing use.
This taking does nothing to reduce or eliminate
blight, and barely even purports to do so.
As noted above, people of color, immigrants, the
elderly, and the poor will disproportionately suffer if
such taking are allowed to continue. Many of the
factors used in Illinois and other states to classify
property as at risk of blight are similar to those
rejected in Norwood because they could be used to
describe any neighborhood, inviting arbitrary
enforcement against the most vulnerable populations.
For instance, the Illinois statute identifies

20
“deterioration” as a blighting factor, but defines it so
broadly as to include defects in “gutters and
downspouts” and “weeds protruding through paved
surfaces.” 65 Ill. Comp. Stat. 5/11-74.4-3(b)(3). To the
extent the factors in the statute describe anything
quantitative, such as property values that are not
increasing at a sufficient rate, 65 Ill. Comp. Stat. 5/1174.4-3(b)(13), those factors are highly correlated with
wealth. All of them facilitate the disproportionate use
of these statutes to take property from the poor and
give it to wealthier developers.
This Court should not sanction an eminent domain
scheme that permits takings purely for economic gain
justified by nothing but speculation and arbitrary
enforcement. A locality’s desire to generate more tax
revenue through a property is not a public use
sufficient to abrogate the foundational right to
property protected by the takings clause. This
country’s long history of abusing eminent domain to
displace vulnerable groups in the name of economic
progress counsels against giving states this arbitrary
power. The Court should take up this case and clarify
that transferring property to a private party for the
sole purpose of preventing the risk of future blight is
not a valid public use, absent actual conditions
affecting public health and safety. If necessary, it
should revisit its holding in Kelo to clarify the
meaning of the public use requirement.

21
CONCLUSION
For the foregoing reasons, the Court should grant
the petition for a writ of certiorari.
Respectfully submitted,
Meaghan VerGow
Counsel of Record
Jeremy Girton
O’MELVENY & MYERS LLP
1625 Eye Street, N.W.
Washington, D.C. 20006
(202) 383-5300
mvergow@omm.com
Counsel for Amici Curiae
April 14, 2021

